TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                    Requests for Employer Identification
                   Numbers Were Processed Correctly and
                  Unused Numbers May Not Pose As Great a
                           Risk As Anticipated



                                         August 23, 2006

                              Reference Number: 2006-30-117




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                 DEPARTMENT OF THE TREASURY
                                                       WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                August 23, 2006


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION

 FROM:                        Michael R. Phillips
                              Deputy Inspector General for Audit

 SUBJECT:                     Final Audit Report – Requests for Employer Identification Numbers
                              Were Processed Correctly and Unused Numbers May Not Pose As
                              Great a Risk As Anticipated (Audit #200530032)

 This report presents the results of our review of the Internal Revenue Service’s (IRS) controls
 over the various methods and procedures used during the processing of requests for and the
 issuance of Employer Identification Numbers (EINs). As part of this review, we also determined
 whether the growth of unused EINs poses a current or future problem for the IRS.

 Synopsis
 EINs are nine-digit numbers assigned by the IRS to sole proprietors, corporations, partnerships,
 estates, trusts, and other nonindividual entities for tax filing and reporting purposes. Taxpayers
 can apply for EINs online or by telephone, fax, or mail using
 an Application for Employer Identification Number (Form
                                                                            While unused EINs may
 SS-4). EIN applications are processed at three IRS                     indicate  potential compliance
 campuses.1 The information provided by taxpayers to the                  abuse, the growth of issued
 questions on the Form SS-4 is used to establish accounts on            but unused EINs may not pose
 the IRS Business Master File.2                                          as great a risk as anticipated.

 In October 2003, the IRS Small Business/Self-Employed
 Division Research function issued the EIN Interim Profile
 Report, which provided various statistics regarding the growth in the percentage of issued versus

 1
   The data processing arm of the IRS. The campuses process paper and electronic submissions, correct errors, and
 forward data to the Computing Centers for analysis and posting to taxpayer accounts.
 2
   The IRS database that consists of Federal tax-related transactions and accounts for businesses. These include
 employment taxes, income taxes on businesses, and excise taxes.
                  Requests for Employer Identification Numbers Were Processed
                 Correctly and Unused Numbers May Not Pose As Great a Risk As
                                          Anticipated


unused EINs. This report stated that the IRS issued
9.3 million new EINs in Calendar Years 2000 through 2002. As of September 1, 2003,
4.2 million of those EINs were unused. EINs issued unnecessarily affect resources, create
burden on taxpayers, and may signal compliance abuse or abusive-scheme activity.3
The IRS Customer Account Services function monitors EIN growth rates and was concerned that
EIN requests and the number of unused EINs were increasing. They requested our assistance to
determine whether EIN application processing procedures and controls were effective and
efficient. The Customer Account Services function also wanted the audit team to help them
determine if the number of issued but unused EINs posed a risk to the IRS.
During this review, we found few processing errors in our analysis of a sample of processed EIN
applications. The controls over the various methods and procedures used during the processing
of requests for and the issuance of EINs appeared to be effective and efficient.
This report presents a profile of the characteristics identified in our sample of processed
EIN applications. We agree with the IRS that unused EINs may potentially signal
noncompliance for new businesses or abusive-scheme activity. However, because the growth
of unused EINs may not be as great as anticipated, the risks associated with unused EINs may
not be as great. Based on the results of our review, we believe some of the perceived growth
may be affected by the methodology used by Small Business/Self-Employed Division
researchers, as well as timing factors. Preliminary research may have overstated the number of
issued versus unused EINs. However, while we may differ with the conclusions arrived at in
the Small Business/Self-Employed research reports with respect to the magnitude of the problem
of issued and unused EINs, we do support recommendations put forward in their reports.

Response
We made no recommendations in this report. However, key IRS management officials reviewed
the report prior to issuance.
Copies of this report are also being sent to the IRS managers affected by the report. Please
contact me at (202) 622-6510 if you have any questions or Daniel R. Devlin, Assistant Inspector
General for Audit (Small Business and Corporate Programs), at (202) 622-8500.

3
 Resources are used and taxpayers are burdened when unnecessary notices are sent to taxpayers by the IRS, or they
are contacted by Compliance staff.




                                                                                                                2
                      Requests for Employer Identification Numbers Were Processed
                     Correctly and Unused Numbers May Not Pose As Great a Risk As
                                              Anticipated




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Controls Over the Processing of Requests for and the Issuance
          of Employer Identification Numbers Are Effective and Efficient................Page 3
          The Growth of Issued but Unused Employer Identification Numbers
          May Not Pose As Great a Risk As Anticipated ............................................Page 3

Appendices
          Appendix I – Detailed Objectives, Scope, and Methodology.......................Page 11
          Appendix II – Major Contributors to This Report ........................................Page 13
          Appendix III – Report Distribution List .......................................................Page 14
         Requests for Employer Identification Numbers Were Processed
        Correctly and Unused Numbers May Not Pose As Great a Risk As
                                 Anticipated




                       Abbreviations

BMF                 Business Master File
CAS                 Customer Account Services
EIN                 Employer Identification Number
IRS                 Internal Revenue Service
LLC                 Limited Liability Company
SB/SE               Small Business/Self-Employed
S Corporation       Small Business Corporation
TIGTA               Treasury Inspector General for Tax Administration
                   Requests for Employer Identification Numbers Were Processed
                  Correctly and Unused Numbers May Not Pose As Great a Risk As
                                           Anticipated




                                            Background

Employer Identification Numbers (EINs) are nine-digit numbers assigned by the Internal
Revenue Service (IRS) to sole proprietors, corporations, partnerships, estates, trusts, and other
nonindividual entities for tax filing and reporting purposes. Taxpayers can apply for EINs
online1 or by telephone, fax, or mail using an Application for Employer Identification Number
(Form SS-4). EIN applications are processed at the IRS Brookhaven Campus in
Holtsville, New York, the Cincinnati Campus in Cincinnati, Ohio, and the Philadelphia Campus
in Philadelphia, Pennsylvania.2 The information provided by taxpayers or their representatives to
the questions on the Form SS-4 is used to establish accounts on the IRS Business Master File
(BMF).3
In October 2003, the IRS Small Business/Self-Employed (SB/SE) Division Research function
issued the EIN Interim Profile Report, which provided various statistics regarding the growth in
the percentage of issued versus unused EINs.4 This report stated that the IRS issued 9.3 million
new EINs in Calendar Years 2000 through 2002 and as of September 1, 2003, 4.2 million of
those EINs were unused. 5
As the administering authority for the EIN process, the Customer Account Services (CAS)
function monitors EIN growth rates. EINs issued unnecessarily affect resources, create burden
on taxpayers, and may signal compliance abuse or abusive-scheme activity.6 Since EIN requests
and the number of unused EINs were increasing and the trend potentially suggested that more
taxpayers were requesting EINs strictly for banking purposes and not to satisfy IRS filing
requirements, CAS function management requested the assistance of the Treasury Inspector
General for Tax Administration (TIGTA) Office of Audit to determine whether EIN application


1
  An EIN issued online is referred to as an I-EIN.
2
  The data processing arm of the IRS. The campuses process paper and electronic submissions, correct errors, and
forward data to the Computing Centers for analysis and posting to taxpayer accounts.
3
  The IRS database that consists of Federal tax-related transactions and accounts for businesses. These include
employment taxes, income taxes on businesses, and excise taxes.
4
  Researchers defined the “Use of an EIN” as a taxpayer who files a Federal income tax return, which is supported
and identified on the IRS Master File by the posting of a Federal income tax return. Although an EIN appears
unused by the IRS definition, this does not mean the EIN is not used outside the Federal Government domain (e.g.,
State licensing requirements). Inherent in the current EIN application process is the likelihood of a certain
percentage of unused EINs.
5
  In June and August of 2004, the SB/SE Division Research function issued Who’s Requesting EINs? An Analysis of
the Growth Rate of Unused Employer Identification Numbers-Project 05.02.002.03, which provided additional
research results.
6
  Resources are used and taxpayers are burdened when unnecessary notices are sent to taxpayers by the IRS, or they
are contacted by Compliance staff.
                                                                                                          Page 1
                  Requests for Employer Identification Numbers Were Processed
                 Correctly and Unused Numbers May Not Pose As Great a Risk As
                                          Anticipated



processing procedures and controls were effective and efficient. The CAS function also wanted
the audit team to help them determine whether the number of issued but unused EINs posed a
risk to the IRS.
In September 2005, TIGTA auditors completed Phase I of their review of the processing of EIN
applications and issued their report.7 During Phase II of this review, the TIGTA audit team
analyzed processed EIN applications selected during Phase I to determine whether the EINs
assigned were subsequently used by the applicants and to determine whether the number of
issued but unused EINs posed a risk to the IRS.
This review was performed at the IRS Brookhaven Campus in Holtsville, New York, in the EIN
Processing Unit during the period September 2005 through May 2006. We also held meetings
and obtained information from CAS function staff8 located at various sites. The audit was
conducted in accordance with Government Auditing Standards. Detailed information on our
audit objectives, scope, and methodology is presented in Appendix I. Major contributors to the
report are listed in Appendix II.




7
  More Effective Procedures Are Needed to Process Taxpayers’ Claims That They Did Not Request Employer
Identification Numbers Assigned to Them (Reference Number 2005-30-131, dated September 2005).
8
  SB/SE Division CAS function operations were consolidated under the Wage and Investment Division in 2005.
                                                                                                      Page 2
                   Requests for Employer Identification Numbers Were Processed
                  Correctly and Unused Numbers May Not Pose As Great a Risk As
                                           Anticipated




                                      Results of Review

Controls Over the Processing of Requests for and the Issuance of
Employer Identification Numbers Are Effective and Efficient
We found few processing errors in our analysis of 311 Forms SS-4 selected in a judgmental9
sample at the IRS Brookhaven Campus EIN Processing Unit. Tax technicians performed
adequate research to determine if applicants were already assigned EINs. They referred difficult
or problem applications to supervisors for review. When additional information was necessary
to process applications accurately, taxpayers were contacted either by telephone or mail. In most
cases, taxpayers’ information was input to the Integrated Data Retrieval System10 correctly and
accounts were established on the BMF accurately. The instructions and guidance provided in the
Internal Revenue Manual11 and controls such as managerial and quality case reviews appeared to
adequately ensure that applications were processed correctly in most instances. The relatively
few processing errors had no material effect on taxpayers or the IRS.

The Growth of Issued but Unused Employer Identification Numbers
May Not Pose As Great a Risk As Anticipated
The October 2003 report issued by the SB/SE Division Research function stated the IRS issued
9.3 million new EINs in Calendar Years 2000 through 2002 and as of September 1, 2003,
4.2 million of those EINs were unused.
Based on the results of our review, we believe this reported growth in the number of issued
versus unused EINs may have been overstated in the SB/SE Division’s preliminary research.




9
  A judgmental sample was selected because the Forms SS-4 are available for a limited time only. The IRS
processed approximately 3.5 million Forms SS-4 during 2004, but the Forms were generally available only when
they were being processed.
10
   The IRS computer system capable of retrieving or updating stored information; it works in conjunction with a
taxpayer’s account records.
11
   Internal Revenue Manual 21.7.13.
                                                                                                          Page 3
                   Requests for Employer Identification Numbers Were Processed
                  Correctly and Unused Numbers May Not Pose As Great a Risk As
                                           Anticipated



Some basic differences between our study and that of SB/SE Division
researchers
•    Our research began with the taxpayers’ original EIN applications.
     Our study began with a judgmental sample of 311 processed Forms SS-4, which were sent to
     the IRS Holtsville, New York, Campus EIN Processing Unit by fax, mail, or internet in
     August and September 2004. We made copies of Forms SS-4 after they were processed, but
     before they were destroyed. This preserved the information taxpayers provided on these
     forms rather than having to rely on the information posted to taxpayers’ accounts, as did the
     SB/SE Division researchers.
•    We performed a more indepth study of each EIN application.
     Because we began our research at an earlier step in the EIN application process and were
     reviewing a much smaller number of accounts than SB/SE Division researchers, we were
     able to expand the depth of our research, which included sending for and examining all the
     U.S. Individual Income Tax Returns (Form 1040) for Tax Years 2004 and 2005 associated
     with the EIN applicants. Thus, in many instances, we were able to determine whether
     applicants who applied for EINs for flowthrough entities (e.g., partnerships or small business
     corporations (S Corporations)) actually used the EINs or reported the entities listed on their
     Forms SS-4 on their Forms 1040.
•    We expanded the definition of “Use of an EIN.”
     For the purposes of the SB/SE Division research, an “unused” EIN was defined as a taxpayer
     who had received an EIN during Calendar Years 2000 through 2002 and there was no
     subsequent posting of a Federal income tax return to that account within the time period
     defined. Our audit team expanded the definition of “used” to include any instance that the
     EIN was reported to the IRS, and in whatever fashion.12 We also included taxpayers’ use of
     the EINs in instances which may or may not be considered taxpayers’ errors. For example, if
     an EIN was assigned to an entity initially described by the taxpayer on the Form SS-4 as a
     partnership and established on the BMF with a U.S. Partnership Return of Income (Form
     1065) primary filing requirement, but was subsequently used by the taxpayer on an
     attachment to Form 1040, Profit or Loss from Business (Schedule C),13 we considered the
     EIN as issued and used.



12
   We included instances in which IRS records indicated that taxpayers met secondary filing requirements (e.g.,
there was no indication the taxpayers had met their primary filing requirements to file their U.S. Corporation Income
Tax Returns (Form 1120), but the taxpayers had filed their Employer’s Quarterly Federal Tax Returns (Form 941)).
13
   In some instances, taxpayers listed only the entity names on their Schedules C and the spaces for the EINs on the
Schedules C were left blank. We examined the Schedules C and copies of the original Forms SS-4 and determined
the entities for which the taxpayers obtained the EINs were in fact being reported on the taxpayers’ returns.
                                                                                                             Page 4
                Requests for Employer Identification Numbers Were Processed
               Correctly and Unused Numbers May Not Pose As Great a Risk As
                                        Anticipated



Filing requirements are not always established based on taxpayers’ intentions
According to Form SS-4, there are a variety of reasons why an application for an EIN is needed,
including: starting a new business, hiring employees, banking purposes, creating a trust or
pension plan, changing the type of organization or purchasing an ongoing business, and
compliance with IRS withholding regulations. Many EINs are obtained for legitimate reasons
that do not include the filing of a tax return, such as needing an EIN for banking purposes, for
meeting State law requirements as it relates to sales tax issues, or for obtaining State licenses.
Using the information provided by an applicant on Form SS-4, the type of entity and the filing
requirements (the types of returns that must be filed with the IRS) are established on the IRS
BMF by the campus that processes the EIN request. Subsequent to the IRS determination, the
taxpayer is notified of any filing requirements and the appropriate forms to be filed.
The determination of taxpayers’ filing requirements and the establishment of these requirements
on the BMF may or may not have been made based on dialogue with the EIN applicants.
Ultimately, if the EINs are used, the taxpayers decide what forms will be filed. For example, the
EIN account may have been established on the BMF as a new business that should file a
corporate tax return when, in fact, the taxpayer’s intention is to be a Schedule C filer.
The SB/SE Division research reports stated this fact limited their research as they had no way of
knowing if the filing requirements initially established on the BMF actually reflected taxpayers’
intentions. In other words, their research only detected, for example, that the EINs were not used
to file U.S. Corporation Income Tax Return (Form 1120), but could not identify that the EINs
were used on taxpayers’ Forms 1040, Schedules C instead. Our study did not have this
limitation as we had the original EIN applications and the Forms 1040 ultimately filed by the
taxpayers.

Profile of cases in our sample can add to the IRS’ knowledge of “unused” EINs
Figure 1 presents a profile of the cases in our sample by entity type with respect to the issuance
of EINs and their subsequent use by taxpayers to file Federal income tax returns.




                                                                                             Page 5
                    Requests for Employer Identification Numbers Were Processed
                   Correctly and Unused Numbers May Not Pose As Great a Risk As
                                            Anticipated



                    Figure 1: Distribution of Unused EINs by Type of Entity
                                                EINs          EINs                                Percentage of EINs
 Entity Type                                   Issued         Used           EINs Unused          Issued but Unused


 Estates                                      49(16%)           23                 26                     53%
 Trusts                                       32(10%)           17                 15                     47%
 Sole Proprietors                             43(14%)           27                 16                     37%
 S Corporations                               47(15%)           41                 6                      13%
 Corporations                                 39(13%)           27                 12                     31%
 Partnerships                                 54(17%)           41                 13                     24%
 No Filing Requirements                       13(4%)            2                  11                     85%
 Other Entity Type                             9(3%)            7                  2                      22%
 Sole Member Limited Liability
 Companies/Disregarded Entities14             25(8%)            12                 13                     52%
 Totals                                         311            197                114                     37%
Source: Review of a judgmental sample of 311 processed EIN applications selected at the IRS Brookhaven Campus
EIN Processing Unit.

Significant issues illustrated by Figure 1
     •     Approximately 37 percent (114 of 311) of the EINs assigned to the applicants in our
           sample were not used to file returns. Because 4 percent (13 of 311) of the EINs were
           assigned to entities with no filing requirements, we estimate 33 percent (37 percent minus
           4 percent) of the EINs that should have been used were not. Some EINs assigned may be
           used after the scope of fieldwork in this audit.
     •     EINs assigned to estates (49 of 311) and trusts (32 of 311) made up 26 percent (81 of
           311) of our sample but represented the largest segment (36 percent), or 41 of the 114
           issued but unused EINs.
     •     Sole proprietors made up 14 percent (43 of 311) of our sample; 37 percent (16 of 43) of
           them did not use the entity names or the EINs assigned to the entities on Schedules C
           attached to either their Tax Years 2004 or 2005 Forms 1040. We were unable to obtain


14
  A Sole Member Limited Liability Company may be required to include all of its income and expenses on the
owner’s tax return (IRM 21.7.13.5.4.3.1). A Disregarded Entity is an eligible entity that is treated as an entity that is
not separate from its single owner. Its separate existence will be ignored for Federal tax purposes unless it elects
corporate tax treatment.
                                                                                                                Page 6
                   Requests for Employer Identification Numbers Were Processed
                  Correctly and Unused Numbers May Not Pose As Great a Risk As
                                           Anticipated



         all the Forms 1040 requested, so we estimate the number of unused EINs issued to sole
         proprietors is most likely lower than 37 percent.
     •   Approximately 87 percent (41 of 47) of S Corporations filed their U.S. Income Tax
         Returns for an S Corporation (Form 1120S).
     •   Corporations (non-S Corporations) made up 13 percent (39 of 311) of the entities in our
         sample. Approximately 56 percent (22 of 39) of these corporations did not file Forms
         1120. However, 10 corporations that did not file Forms 1120 used their EINs to meet
         secondary filing requirements on either Employer’s Annual Federal Unemployment
         (FUTA) Tax Returns (Form 940), Employer’s Quarterly Federal Tax Returns (Form
         941), or schedules attached to their Forms 1040. Therefore, only 31 percent (12 of 39) of
         the EINs issued to corporations were not used.
     •   Partnerships made up the single largest entity type in our sample (17 percent, or 54 of
         311). Approximately 43 percent (23 of 54) of partnerships did not file Forms 1065 as
         required. However, 10 of the partnerships that did not file Forms 1065 used the EINs
         either to meet secondary filing requirements or on schedules attached to their Forms
         1040. Therefore, only 24 percent (13 of 54) of the EINs issued to partnerships were not
         used.
     •   Approximately 76 percent (41 of 54) of the partnerships that applied for EINs were
         described as Limited Liability Companies (LLC)15 on the Forms SS-4 and were
         established on the BMF with Form 1065 as their primary filing requirement. More than
         one-half of these LLCs were created for real estate rental/investment/development and
         management activities.
     •   Only 3 of the 311 cases in our sample involved household employees and required the
         filing of Household Employment Taxes (Schedule H).

Profile of cases in our sample can add to the IRS’ knowledge of the behavior
patterns of flowthrough entities and sole proprietors
Certain types of entities (e.g., partnerships) are considered flowthrough entities.16 Income or
losses reported on the Forms 1065 flow through to the partners and are required to be reported on
Supplemental Income and Loss Schedules (Schedule E) attached to the partners’ Forms 1040.
Entities defined as sole proprietors are required to report their income and losses on Schedules C
attached to their Forms 1040.


15
   A limited liability company is an unincorporated business entity, established under state law, in which all owners
have limited liability. Thus the LLC is a blend of the corporation and partnership formats.
16
   Flowthrough entities consisted of S Corporations, Partnerships, Sole Member LLCs (also referred to as Single
Member LLCs), and Disregarded Entities.
                                                                                                              Page 7
                   Requests for Employer Identification Numbers Were Processed
                  Correctly and Unused Numbers May Not Pose As Great a Risk As
                                           Anticipated



There were 169 (54 percent) flowthrough and sole proprietor entities in our judgmental sample
of 311 cases. We requested the Tax Year 2004 and 2005 Forms 1040 for these taxpayers and
determined if the EINs or the entities to which the EINs were assigned appeared on the
taxpayers’ Forms 1040 in either tax year.

Significant issues pertaining to flowthrough and sole proprietor entities
     •   EINs assigned to flowthrough entities made up 75 percent of the accounts (126 of 169)
         that required a match to taxpayers’ Forms 1040 to determine if taxpayers reported income
         or losses from these entities as required. Sole proprietors made up the other 25 percent
         (43 of 169) of the accounts requiring a match.
     •   Approximately 78 percent of S Corporations that used their EINs to file Forms 1120S
         reported the EINs or entities on their Forms 1040.17
     •   Partnerships made up the largest entity type (32 percent) of all the flowthrough entities.
         Approximately 54 percent of the partnerships that used their EINs to meet primary or
         secondary filing requirements reported the EINs or entities on their Forms 1040.18
     •   Entities described as Sole Member LLCs and Disregarded Entities made up only
         15 percent of the flowthrough entities. Approximately 67 percent of the EINs that were
         used to meet primary or secondary filing requirements were reported by taxpayers on
         their Forms 1040.19
     •   Sole proprietors reported the EINs or the entity names on their Forms 1040, Schedule C,
         in 18 (67 percent) of the 27 cases in which we had previously determined the EINs were
         used.20 Many taxpayers that did list the entities on their Schedules C did not enter the
         respective EINs in the appropriate box on the Schedule C Forms.

Conclusion
We agree with the IRS that unused EINs may signal noncompliance for new businesses or
abusive-scheme activity. However, because the growth of unused EINs may not be as great as
anticipated, the risks associated with unused EINs may not be as great. Based on the results of
our limited sample of 311 cases, we believe some of the perceived growth may be affected by the
methodology used by SB/SE Division researchers, as well as timing factors. As a result, it may



17
   We anticipate this figure is actually higher, but we were not able to obtain all the Forms 1040 that we requested.
18
   We anticipate this figure is actually higher, but we were not able to obtain all the Forms 1040 that we requested.
19
   We anticipate this figure is actually higher, but we were not able to obtain all the Forms 1040 that we requested.
20
   The difference would consist of cases where taxpayers met secondary filing requirements but not primary filing
requirements. We anticipate this figure is actually higher, but we were not able to obtain all the Forms 1040 that we
requested.
                                                                                                             Page 8
                  Requests for Employer Identification Numbers Were Processed
                 Correctly and Unused Numbers May Not Pose As Great a Risk As
                                          Anticipated



be likely that the growth in the number of issued versus unused EINs was overstated in the
SB/SE Division’s preliminary research.21

We support many of the recommendations endorsed by the SB/SE Division
researchers
Our report presents a profile of the characteristics we identified in our sample of 311 processed
EIN applications. While we may differ with the conclusions arrived at in the SB/SE Division
research reports with respect to the magnitude of the problem of issued but unused EINs, we do
support recommendations put forward in their reports.
•    Some BMF accounts (e.g., nonprofit entities like scholarship funds and clubs) are not
     established with filing requirements. We agree with the conclusion of the SB/SE Division
     Research function staff that these types of EINs are being used for other than tax purposes
     and that there will always be a degree of unused EINs. We further agree with their
     recommendation that perhaps the IRS should consider developing a short Form SS-4, which
     would allow the IRS to separately account for these entities, while potentially reducing the
     taxpayer burden associated with current form preparation.
•    The IRS has identified the LLC as a possible emerging compliance segment, especially those
     LLCs designated as “disregarded entities.” Because of the number of EIN applicants for
     entities described as LLCs in our limited sample, especially the number associated with real
     estate rental/investment/development and management activities, we agree with the
     conclusion of the SB/SE Division Research function staff that the CAS function could use
     such information to identify taxpayer trends with respect to this emerging choice of entity
     and the ensuing filing and compliance issues.
•    The SB/SE Division research Reports stated the largest growth rate for newly issued unused
     EINs appeared within flowthrough entities. We agree with the conclusion of the SB/SE
     Research function staff that this may have implications for Compliance function operational




21
  Some of the taxpayers who applied for EINs in the August through September 2004 time period did not use the
EINs until they filed their 2005 tax returns in 2006.




                                                                                                        Page 9
                  Requests for Employer Identification Numbers Were Processed
                 Correctly and Unused Numbers May Not Pose As Great a Risk As
                                          Anticipated



     priorities that deal with K-1 matching22 and questionable structured transactions for “high
     income taxpayers.”
•    Approximately 26 percent (81 of 311) of the applications for EINs in our sample were for
     estates and trusts, but as of June 2006, 51 percent (41 of 81) of these entities had not filed
     returns (Forms 1041). We concur with the SB/SE Division Research function staff that these
     unused EINs for estates and trusts may be a source for the identification of “abusive
     schemes.”




22
  An IRS program that matches the information reported on Beneficiary’s Share of Income, Deductions, Credits,
etc. (Form 1041, Schedule K-1); Partner’s Share of Income, Deductions, Credits, etc. (Form 1065, Schedule K-1);
and Shareholder’s Share of Income, Deductions, Credits, etc. (Form 1120S, Schedule K-1) to taxpayers’ individual
income tax returns.




                                                                                                        Page 10
                   Requests for Employer Identification Numbers Were Processed
                  Correctly and Unused Numbers May Not Pose As Great a Risk As
                                           Anticipated



                                                                                                 Appendix I

        Detailed Objectives, Scope, and Methodology

The main objective of this audit was to evaluate the IRS controls over the various methods and
procedures used during the processing of requests for and the issuance of EINs. As part of this
review, we also determined whether the growth of unused EINs poses a current or future
problem for the IRS. To accomplish these objectives, we:
I.      Determined whether there are additional steps the IRS could take to ensure the efficiency
        and effectiveness of the processing of requests for EINs.
        A. Evaluated the current procedures and controls over the IRS EIN application and
           issuance process.
             1. Reviewed all pertinent Internal Revenue Manual sections and desk procedures
                related to the processing of taxpayers’ EIN applications.
             2. Identified the key controls and procedures in place for each of the EIN application
                methods (i.e., online, telephone, fax and mail).
        B. Gathered and reviewed any information on changes to the EIN application process
           since the completion of Phase I of the review.
             1. Held interviews with IRS management staff to obtain information and
                documentation regarding any concerns with the current EIN application and
                issuance process, as well as inventory processing records for the past year.
             2. Obtained information, reports, or documents regarding any future plans for the
                processing of EIN applications.
II.     Determined whether the EIN issuance procedures and controls were being followed
        during the processing of EIN applications and the establishment of new entities on the
        BMF.1
        A. Analyzed a judgmental sample2 of 311 EIN applications selected from the IRS EIN
           application processing functions during Phase I of this review to determine whether



1
  The IRS database that consists of Federal tax-related transactions and accounts for businesses. These include
employment taxes, income taxes on businesses, and excise taxes.
2
  A judgmental sample was selected because the Forms SS-4 are available for a limited time only. The IRS
processed approximately 3.5 million Forms SS-4 during 2004, but the Forms were generally available only when
they were being processed.
                                                                                                         Page 11
                   Requests for Employer Identification Numbers Were Processed
                  Correctly and Unused Numbers May Not Pose As Great a Risk As
                                           Anticipated



             applications were processed correctly and account information and filing
             requirements were properly established on the BMF.
        B. Evaluated whether the current EIN issuance controls and procedures are adequate to
           ensure the future compliance of new business entities created on the BMF and
           prevent the issuance of unnecessary EINs.
        C. Evaluated whether the IRS could take additional steps to increase the effectiveness
           and efficiency of the EIN application and issuance process, reduce the burden on its
           BMF customers, and increase the potential for cost savings, increased revenue, and
           tax compliance.
III.    Using the results of our analysis of the sample of EIN applications, as well as discussions
        with IRS staff, determined whether issued but unused EINs pose any problems for the
        IRS.
        A. Analyzed the sample in Step II.A. to identify the accounts established with filing
           requirements upon the creation of the BMF accounts and issuance of EINs.
             1. Performed Integrated Data Retrieval System3 research to determine whether
                taxpayers assigned EINs with filing requirements actually filed returns using the
                assigned EINs.
             2. Performed Integrated Data Retrieval System research to determine whether
                taxpayers assigned EINs with filing requirements that were not used filed returns
                using other EINs or Social Security Numbers.
        B. Performed research to determine whether IRS data reflected potential unreported
           income for the unused EINs identified in our analysis.
        C. Performed research to identify independent listings (i.e., telephone directories) for the
           entities established with filing requirements, but no evidence of filing returns.




3
  The IRS computer system capable of retrieving or updating stored information; it works in conjunction with a
taxpayer’s account records.
                                                                                                          Page 12
               Requests for Employer Identification Numbers Were Processed
              Correctly and Unused Numbers May Not Pose As Great a Risk As
                                       Anticipated



                                                                               Appendix II

                 Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Small Business and Corporate
Programs)
Kyle R. Andersen, Director
Robert K. Irish, Audit Manager
Kathleen A. McFadden, Lead Auditor
Margaret F. Filippelli, Senior Auditor
Carol C. Gerkens, Senior Auditor




                                                                                        Page 13
               Requests for Employer Identification Numbers Were Processed
              Correctly and Unused Numbers May Not Pose As Great a Risk As
                                       Anticipated



                                                                            Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Wage and Investment Division SE:W
Director, Communications, Liaison, and Disclosure, Small Business/Self-Employed Division
SE:S:CLD
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Chief, Performance Improvement, Wage and Investment Division SE:W:S:PI
Director, Accounts Management, Wage and Investment Division SE:W:CAS:AM
Director, Submission Processing, Wage and Investment Division SE:W:CAS:SP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Commissioner, Small Business/Self-Employed Division SE:S
       Commissioner, Wage and Investment Division SE:W




                                                                                    Page 14
